WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-8303

   

Dong Sheng Huang Jalea Joechele Hill, et al.
(Petitioner) Vv. (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Iam filing this waiver on behalf of all respondents.

© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

JALEA JOECHELE HILL; KAREA MARIE WILLIAMS; and MURPHY OIL USA, INC

Please check the appropriate box:

 

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

OWS
U

Signature:

Date:

  

(Type or print) Name | John D Wittenmyer

© ‘Mr, O Ms. oO Mrs. Oo Miss
Firm LeBoeuf & Wittenmyer, P.C. a /
Address 11757 Katy Freeway, Suite 1300
City & State Houston, Texas ee | Zip 77079 |
Phone 713-463-5422 ——|_‘Bimail johnwitt@flash.net

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

ce: Dong Sheng Huang
